No. 20-746
In The
Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH, AND
BISHOP ARTHUR HODGES III,
v.

Petitioners,

GAVIN NEWSOM, in his official capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney General of California, SONIA
ANGELL, in her official capacity as California Public Health Officer, WILMA J.
WOOTEN, in her official capacity as Public Health Officer, County of San Diego,
HELEN ROBBINS-MEYER, in her official capacity as Director of Emergency Services,
County of San Diego, and WILLIAM D. GORE, in his official capacity as Sheriff,
County of San Diego
Respondents
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SAN DIEGO COUNTY DEFENDANTS’
RESPONSE JOINING STATE OF
CALIFORNIA’S BRIEF IN OPPOSITION

COUNTY OF SAN DIEGO
JEFFREY P. MICHALOWSKI, Senior Deputy
Counsel of Record
1600 Pacific Highway, Room 355
San Diego, CA 92101
(619) 531-4886
jeffrey.michalowski@sdcounty.ca.gov

Counsel for Respondents Wilma J. Wooten, in her official Capacity as Public
Health Officer, County of San Diego, Helen Robbins-Meyer, in her official
capacity as Director of Emergency Services, County of San Diego, and William
D. Gore, in his official capacity as Sheriff, County of San Diego

REASONS FOR DENYING PETITION
The County Defendants—County Public Health Officer, Dr.
Wilma J. Wooten; San Diego County Sheriff William D. Gore; and
County Emergency Services Director Helen Robbins-Meyer, all sued in
their official capacities (the “County Defendants”)—hereby join the Brief
in Opposition filed by the State Defendants. 1 The County Defendants
agree that the Petition for Writ of Certiorari should be denied for all the
reasons stated therein.
Respectfully submitted,
COUNTY OF SAN DIEGO
/s/ Jeffrey P. Michalowski
JEFFREY P. MICHALOWSKI
Senior Deputy

The County’s Public Health Order incorporates the state’s
guidance without modification, and does not separately address
religious services. See 2 ER 339 ¶ 10(c). Plaintiffs argue that the
County’s orders, at unspecified times, were more restrictive than the
state’s guidance, but cite only a ban on drive-in worship services that
dates to the earliest days of the pandemic (see Petition p. 7), that has
long since expired, and that was not challenged or addressed in the
district court or Ninth Circuit below. Since May 2020, the County’s
Orders have conformed to the State’s guidance, nothing more.
1

